           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


  PENDING WORKERS’ COMPENSATION:
 THE SOCIAL SECURITY ADMINISTRATION
        CAN PREVENT MILLIONS
         IN TITLE II DISABILITY
            OVERPAYMENTS

  June 2003           A-08-02-12064



 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                          SOCIAL SECURITY

MEMORANDUM                                                                                  Refer To:
Date:   June 6, 2003

To:     The Commissioner

From:   Inspector General

Subject: Pending Workers’ Compensation: The Social Security Administration Can
        Prevent Millions in Title II Disability Overpayments (A-08-02-12064)

        OBJECTIVE

        Our objective was to evaluate the Social Security Administration's (SSA) management
        of title II disability cases with pending workers’ compensation (WC) issues and assess
        the Agency’s efforts to prevent overpayments.

        BACKGROUND

        WC is a system of compensation for persons injured while working or who suffer
        occupational diseases. Each State, the District of Columbia, American Samoa, Guam,
        the Northern Mariana Islands, Puerto Rico and the Virgin Islands, require that
        employers operating in their jurisdictions provide WC insurance for their employees and
        report work-related injuries to the State or responsible WC agency. The Social Security
        Act requires that SSA offset disability benefits for individuals who receive Federal, State
        or locally administered WC benefits in most States.1

        Developing WC issues is a joint field office (FO) and program service center (PSC)
        responsibility. When an individual applies for title II disability benefits, FO personnel
        determine whether WC may be involved. If SSA approves disability benefits and the
        applicant’s WC claim is pending, SSA requires that beneficiaries report receipt of
        subsequent WC payments. SSA policies and procedures require that personnel follow
        up on WC issues until resolved. SSA's Modernized Claims System (MCS) generates a
        one-time diary alert after benefit approval. This diary alert reminds personnel to follow


        1
          SSA administers the Old-Age, Survivors and Disability Insurance program under title II of the Social
        Security Act. Section 223(a) of the Act (42 U.S.C. § 423(a)) provides monthly disability benefits to
        insured individuals meeting specific disability requirements. Section 224 (42 U.S.C. § 424a) requires
        SSA to offset disability benefits by any other disability benefits paid under any law or plan of the United
        States, a State, or political subdivision. However, 14 states are required by state law to offset WC
        benefits with title II disability benefits.
Page 2 – The Commissioner

up on pending WC issues.2 PSC personnel must manually establish additional diaries
to continue developing WC issues.3

In November 2002, we issued an early alert in which we notified SSA that it improperly
paid title II disability beneficiaries because SSA did not have a process in place to
ensure it systematically followed up on pending WC cases and encouraged the Agency
to implement such a process. This report serves as a follow up to our early alert and
recommends corrective actions to improve the Agency’s management of pending WC
cases and prevent overpayments.

SCOPE AND METHODOLOGY
To accomplish our objective, we interviewed FO and PSC staff responsible for
processing title II disability cases with pending WC issues. Additionally, we

•     reviewed relevant SSA regulations, policies, and procedures;

•     obtained a data extract of 179,284 title II disability cases that had pending WC
      issues for 2 or more years as of July 2001;4 and

•     reviewed a statistical sample of 100 pending WC cases aged 2 to 19 years and
      30 cases aged 20 to 39 years.

See Appendix A for more information on our sample methodology.

Working with SSA FO personnel, we contacted State WC agencies and/or insurance
companies for pertinent WC payment information. SSA's Operations Support Branch,
Operations Analysis Section at the Southeastern PSC calculated the amount of title II
disability benefits that should have been offset because of unreported WC.

The SSA entity reviewed was the Office of the Deputy Commissioner for Operations.
We conducted our audit from January through November 2002 in accordance with
generally accepted government auditing standards.




2
 The Program Operations Manual System (POMS), section SM 00360.135 defines a pending WC claim
as one in which a beneficiary intends to file for WC benefits, is waiting on a decision, or has appealed
his/her WC claim.
3
    SSA’s WC policies and procedures are contained in POMS, section DI 52001.
4
    We define a case as the wage earner’s account and all eligible auxiliaries (such as spouse or child).
Page 3 – The Commissioner

RESULTS OF REVIEW
In prior Office of the Inspector General reports, we have highlighted the vulnerabilities in
SSA’s management of title II disability cases involving WC payments.5 Based on the
results of this review, we are equally concerned about SSA’s risk of exposure to
improper payments.

Our review disclosed that SSA overpaid title II disability beneficiaries millions of dollars.
Of the 178,900 WC cases aged 2 to 19 years, we sampled 100 cases and found that 30
cases (30 percent) had unreported WC payments totaling almost $900,000. Of these
30 cases, 10 (33 percent) resulted in title II disability overpayments totaling over
$67,000. As such, we estimated SSA overpaid 17,890 beneficiaries almost $121 million
because of unreported WC payments (see Appendix B for our sample appraisal).
These may be conservative estimates because some State WC agencies purged older
cases, which could have resulted in additional overpayments.

Based on our sample of 100 WC cases aged 2 to 19 years, we estimated the following
results to our population of 178,900 cases:

   87,661 (49 percent) involved situations in which the State WC agency denied the
    claim, the beneficiary dropped the claim, or the beneficiary received WC payments
    outside his/her period of title II eligibility;

   35,780 (20 percent) involved unreported WC payments SSA did not identify;
    however, these did not result in overpayments;

   17,890 (10 percent) involved unreported WC payments SSA did not identify, which
    resulted in title II overpayments;

   17,890 (10 percent) involved situations in which SSA personnel had information that
    WC was not an issue when applicants filed for title II disability benefits;

   8,945 (5 percent) were developed and resolved by SSA, but the Agency failed to
    delete the pending designation;

   5,367 (3 percent) were awaiting settlement of the WC claim at the time of our audit
    (some of these cases could potentially result in overpayments if SSA fails to follow
    up on them); and

   5,367 (3 percent) were purged by a State WC agency because of the age of the
    case (some of these cases could have resulted in overpayments, but records were
    not available to make this determination).


5
 Worker’s Compensation Unreported by Social Security Beneficiaries (A-04-98-64002), November 1999,
and Effects of State Awarded Workers’ Compensation Payments on Social Security Benefits
(A-04-96-61013), September 1998.
Page 4 – The Commissioner

Figure 1: Estimated Status of 178,900 WC Cases Pending as of July 2001

                                                                            WC was pending
                                                                                 3%
        WC denied or dropped, or
                                                                                     WC information was purged
         outside period of title II
                                                                                                3%
                eligibility
                   49%

                                                                                   Unreported WC
                                                                                   not resulting in
                                                                                    overpayments
                                                                                        20%


                                                                                  Unreported WC resulting
                                SSA developed WC                                     in overpayments
                                                      WC was not an issue                  10%
                                 but did not delete          10%
                                  pending status
                                         5%


Of the 384 cases aged 20 to 39 years, we sampled 30 cases and found that
4 (13 percent) had unreported WC payments, but none of these resulted in
overpayments.

SSA Can Prevent Title II Disability Overpayments
These millions of dollars in overpayments could have been prevented had SSA
personnel routinely followed up on WC issues, as required by POMS.6 We recognize
that following up on WC issues can be time consuming and require significant
resources. However, we believe SSA has a stewardship responsibility to ensure it
properly pays beneficiaries, thus avoiding overpayments.

Although SSA's MCS generates a one-time diary alert, PSC personnel must manually
establish additional diaries to control future development. However, we found they did
not always do so. For example, in one case, SSA personnel failed to adequately control
development of the beneficiary’s appeal of his WC claim and subsequent award,
resulting in a $28,363 overpayment. In another case, SSA personnel failed to
adequately follow up on the pending WC claim, resulting in an $8,090 overpayment.

SSA does not have an automated process in place to ensure it systematically and
routinely follows up on cases with pending WC issues. This would allow SSA to make
timely adjustments to title II benefit payments and avoid overpayments. SSA could
generate automated alerts until personnel resolve WC issues. Additionally, SSA could
periodically produce a report showing how many WC cases are pending and how long

6
    POMS, section DI 52001.145B.6 and 7.
Page 5 – The Commissioner

they have been pending. Management would use this report to monitor the status of
cases and ensure personnel take appropriate action to resolve WC issues.

FO and PSC personnel agreed that SSA could prevent overpayments by developing
and implementing an automated process to ensure it systematically and routinely
follows up on cases with pending WC issues. We believe the potential savings that
would occur by preventing these overpayments would greatly exceed any costs
associated with implementing such a process. Given that SSA’s pending WC workload
is growing, as shown in Figure 2, we believe SSA should take immediate action to
reduce its risk of exposure to improper payments.


Figure 2: Title II Cases with WC Issues Pending for 2 or More Years


          250,000

          200,000

          150,000

          100,000         179,284           193,929           201,361

           50,000

                 0


                     As of July 2001   As of July 2002   As of January 2003



SSA Needs Accurate Information To Effectively Manage WC Cases
To effectively manage title II disability cases with pending WC, SSA personnel need to
know the correct status of cases. However, we estimated that SSA failed to remove the
pending WC designation, as required by POMS,7 from almost 9,000 title II disability
cases after SSA personnel resolved WC issues. We believe this hinders SSA’s ability
to effectively manage its WC workload.

We also estimated there were about 17,890 cases for which SSA personnel had
information that WC was not an issue when applicants filed for title II disability benefits.
However, SSA classified the cases as having pending WC issues because MCS
automatically designated them as such when claimants stated they had work-related
injuries. We found that WC was not an issue in these cases because claimants had
received company disability insurance, sick pay, or other benefits that were exempt

7
POMS, section DI 52001.145B.7.
Page 6 – The Commissioner

from WC; were self-employed and not self-insured for WC; or had not filed for WC
within the statute of limitations. We believe SSA should consider systems
enhancements that detect such situations and exclude them from further review.

Knowing the correct status of title II claims classified as having pending WC issues is
important so SSA personnel will not retrieve and analyze cases that no longer require
development. SSA personnel agreed that knowing the correct status would assist them
in effectively managing the growing WC workload.

CONCLUSION AND RECOMMENDATIONS
If SSA does not take a proactive role in properly managing its pending WC workload, it
will continue to build a significant backlog of pending WC cases and pay millions of
dollars in title II disability overpayments. Accordingly, we encourage SSA to
expeditiously implement an automated process whereby the Agency can systematically
and routinely follow up on cases with pending WC issues.

We recommend that SSA:

1. Initiate actions to recover the 10 title II disability overpayments we identified, where
   feasible.

2. Take steps to reduce its backlog of title II disability cases having pending WC
   issues.

3. Develop and implement an automated process to ensure the Agency systematically
   and routinely follows up on new pending WC cases.

4. Explore systems enhancements that would detect situations in which WC
   is not applicable to prevent personnel from retrieving and analyzing cases that no
   longer require development.

AGENCY COMMENTS

SSA generally agreed with our recommendations. Regarding Recommendation 1, SSA
stated it began recovery action for the 10 cases prior to issuance of the audit report and
has completed 8 of the 10 cases with the remaining cases to be completed by the end
of June 2003. Regarding Recommendation 2, SSA stated it started a study on
April 24, 2003 to detect high-risk and high-payoff cases. SSA expects to complete the
study by the end of fiscal year 2003, at which time it will use the results to develop a
plan for handling categories of cases where additional processing would be cost
effective. Regarding Recommendations 3 and 4, SSA stated it will evaluate and
consider any programming issues once it completes the study indicated in
Recommendation 2.

The full text of SSA’s comments is included in Appendix C.
Page 7 – The Commissioner

OIG RESPONSE
We believe SSA’s response and planned actions adequately address
Recommendations 1 and 2. However, we believe SSA’s response to
Recommendations 3 and 4 does not effectively respond to our goal of preventing title II
disability overpayments and effectively managing the WC workload.

Regarding SSA’s response to Recommendation 3, we acknowledge SSA’s efforts in
detecting high-risk and high-payoff WC cases and developing a plan for handling
categories of cases where additional processing would be cost effective. While we
believe these initiatives are useful, they only address the Agency’s existing pending WC
workload. It is unclear how the study results will address the preventive nature of our
recommendation. The intent of Recommendation 3 is to encourage the Agency to
systematically and routinely follow up on new pending WC cases so that it can make
timely adjustments to benefits and avoid overpayments. Accordingly, we ask SSA to
commit the necessary resources to expeditiously develop and implement an automated
process to address this issue.

Regarding SSA’s response to Recommendation 4, we acknowledge SSA’s efforts to
study its pending WC workload. However, it is unclear how the study results will assist
SSA in managing its pending WC workload by detecting situations in which WC is not
applicable. As discussed in this report, not knowing the correct status of cases with
pending WC issues hinders SSA’s ability to effectively manage its WC workload.
Knowing the correct status of pending WC cases is important so SSA personnel will not
retrieve and analyze cases that no longer require development. Accordingly, we
encourage SSA to commit the necessary resources to identify systems enhancements
that would detect situations in which WC is not applicable.




                                        James G. Huse, Jr.
                                   Appendices
APPENDIX A – Sample Methodology

APPENDIX B – Sample Appraisal

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                                                      Appendix A

Sample Methodology
We obtained a data extract of 179,284 title II disability cases with pending workers’
compensation (WC) issues as of July 2001.1 From this extract, we reviewed a statistical
sample of 100 pending WC cases aged 2 to 19 years and 30 cases aged 20 to 39
years. We found that 10 of the 100 sampled cases resulted in title II disability
overpayments. None of the 30 sampled cases resulted in overpayments. See
Appendix B for our sample appraisal.

Aging                 Year of           Number of         Number of Title II         Number of
(years) 2            Application         Title II         Cases Reviewed               Cases
                                         Cases           by the Office of the        with Title II
                                                         Inspector General          Overpayments
02                       1999             15,012                 8                        0
03                       1998             13,898                 8                        2
04                       1997             13,173                 7                        2
05                       1996             12,833                 7                        1
06                       1995             12,826                 7                        0
07                       1994             16,767                 9                        0
08                       1993             16,033                 9                        1
09                       1992             15,364                 9                        0
10                       1991             13,471                 8                        1
11                       1990             11,258                 6                        1
12                       1989              8,320                  5                       0
13                       1988              6,232                  3                       1
14                       1987              6,031                  3                       1
15                       1986              5,751                  3                       0
16                       1985              4,781                  3                       0
17                       1984              3,815                  2                       0
18                       1983              2,850                  2                       0
19                       1982                485                  1                       0
Subtotals                               178,900                  100                      10
20 – 39               1962-1981             384                   30                       0
Totals                                  179,284                  130                      10




1
    We define a case as the wage earner’s account and all eligible auxiliaries (such as spouse or child).
2
 We aged the population of pending WC cases based on the time from the applicant’s date of filing to
July 2001. We selected cases that had been pending for two or more years because it takes state WC
agencies about 2 years to finalize WC claims.
                                                               Appendix B
Sample Appraisal

                           Results and Projections

Population size in items                                            178,900
Sample size in items                                                    100
                                Attribute Projections

Sample cases – Number of title II beneficiaries overpaid
because of unreported Workers’ Compensation (WC)                         10
payments
Projection – Number of title II beneficiaries overpaid
                                                                     17,890
because of unreported WC payments
Projection lower limit                                                9,888
Projection upper limit                                               29,286
                              Variable Projections
Sample cases – Title II overpayments resulting from
                                                                    $67,537
unreported WC payments
Projection – Title II overpayments resulting from unreported
                                                               $ 120,823,693
WC payments
Projection lower limit                                          $ 24,508,353
Projection upper limit                                         $ 217,139,033

We made all projections at the 90-percent confidence level.
                  Appendix C
Agency Comments
                                       SOCIAL SECURITY
MEMORANDUM


Date:      May 19, 2003                                                              Refer To: S1J-3

To:        James G. Huse, Jr.
           Inspector General

From:      Larry W. Dye
           Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Pending Workers’ Compensation: The Social
           Security Administration Can Prevent Millions in Title II Disability Overpayments”
           (A-08-02-12064)—INFORMATION


           We appreciate OIG's efforts in conducting this review. Our comments on the
           recommendations are attached.

           Please let us know if we can be of further assistance. Staff questions can be referred to
           Janet Carbonara at extension 53568.

           Attachment:
           SSA Response




                                                        C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “PENDING WORKERS’ COMPENSATION: THE SOCIAL
SECURITY ADMINISTRATION (SSA) CAN PREVENT MILLIONS IN TITLE II
DISABILITY OVERPAYMENTS” A-08-02-12064


We appreciate the opportunity to comment on this draft report.

Recommendation 1

Initiate actions to recover the 10 title II disability overpayments that were identified,
where feasible.

Comment

SSA began the recovery action for the 10 cases prior to the audit report being issued.
Currently 8 of the 10 cases have been completed with the remaining cases to be
completed by the end of June 2003.

Recommendation 2

Take steps to reduce its backlog of title II disability cases having pending workers’
compensation (WC) issues.

Comment

SSA started a study on April 24, 2003 to detect high-risk and high-payoff cases. The
study will require an estimated 5 months to complete because some of the cases will
require extensive development to obtain up-to-date workers’ compensation information.
The study is expected to be completed by the end of fiscal year 2003, at which time we
will use the results to develop a plan for handling categories of cases where additional
processing would be cost effective.

Recommendation 3

Develop and implement an automated process to ensure the Agency systematically and
routinely follows up on new pending WC cases.

Comment

Once the study indicated in recommendation 2 is complete, we will evaluate and consider
any programming issues.




                                             C-2
Recommendation 4

Explore systems enhancements that would detect situations in which WC is not
applicable to prevent personnel from retrieving and analyzing cases that no longer require
development.

Comment

Once the study indicated in recommendation 2 is complete, we will evaluate and consider
any programming issues.




                                           C-3
                                                                       Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

      Walter Bayer, Director, (215) 597-4080

      Jeff Pounds, Deputy Director, (205) 801-1606

Acknowledgments

In addition to the persons named above:

      Charles Lober, Senior Auditor

      Susan Phillips, Auditor

      Kimberly Beauchamp, Writer-Editor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-08-02-12064.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                   Overview of the Office of the Inspector General

                                            Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                   Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.

                                   Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
